      FOLLOW-UP AUDIT OF THE
      DEPARTMENT OF JUSTICE’S
INTERNAL CONTROLS OVER REPORTING
 OF TERRORISM-RELATED STATISTICS:
  THE NATIONAL SECURITY DIVISION

         U.S. Department of Justice
       Office of the Inspector General
                Audit Division

            Audit Report 12-37
             September 2012
   FOLLOW-UP AUDIT OF THE DEPARTMENT OF JUSTICE’S
        INTERNAL CONTROLS OVER REPORTING OF
           TERRORISM-RELATED STATISTICS:
           THE NATIONAL SECURITY DIVISION

                             EXECUTIVE SUMMARY

       In February 2007, the Office of the Inspector General (OIG) completed
an audit of the Department of Justice’s (Department) internal controls over
reporting terrorism-related statistics. This audit reviewed terrorism-related
statistics reported by the Department and three Department components –
the Federal Bureau of Investigation (FBI), Executive Office for United States
Attorneys (EOUSA), and Criminal Division, and it found that the Department
components and the Department as a whole did not accurately report
terrorism-related statistics. 1 The 3 components did not accurately report 24
of the 26 statistics reviewed, with some statistics significantly overstated or
understated, while others were overstated or understated by minor
amounts. 2

       The OIG initiated this follow-up audit to determine if: (1) Department
components took appropriate actions to implement the recommendations
from our 2007 audit; and (2) corrective actions implemented improved the
components’ ability to gather, track, classify, verify, and report accurate
terrorism-related statistics. Following the 2007 audit report, the National
Security Division (NSD) took over responsibility for corrective actions on the
recommendations to the Criminal Division. In November 2008, the NSD’s
Counterterrorism Section revised and republished its circular that
established and documented internal control procedures for gathering,
verifying, and reporting terrorism-related statistics. These procedures, if
implemented appropriately, should ensure that statistics are accurately
reported and supported. This audit provides our results pertaining only to
the NSD. The OIG will similarly report on the corrective actions taken by the
FBI and EOUSA.

      While the NSD revised its procedures for gathering, classifying, and
reporting terrorism-related statistics based on the recommendations from
our 2007 audit, the NSD’s implementation of the revised procedures were
not effective at ensuring that terrorism-related statistics were reported

       1
          U.S. Department of Justice Office of the Inspector General, The Department of
Justice’s Internal Controls over Terrorism Reporting, Audit Report 07-20 (February 2007).
       2
          For purposes of this audit, we considered the misreporting of a statistic as
significant if the statistic was either overstated or understated by 10 percent or more.


                                               i
accurately. In this audit, the OIG identified nine unique terrorism-related
statistics reported by the NSD in budget submissions or other documents for
fiscal years 2009 through 2012, and the auditors selected five of the nine
statistics to test for accuracy. The OIG determined that the NSD did not
accurately report four of the five statistics we reviewed.

      Although it appears that the statistics were not significantly overstated
or understated, the inaccurate reporting indicates a need for the NSD to
strengthen further its application of controls for gathering, verifying, and
reporting its terrorism-related statistics. The statistics were inaccurately
reported because the NSD’s: (1) Counterterrorism Section did not maintain
documentation detailing the statistics on convictions, charges, and cases
favorably resolved at the time the numbers were reported; and (2) Office of
Justice for Victims of Overseas Terrorism did not have written internal
control procedures for gathering, tracking, verifying, and reporting its
terrorism-related statistic on U.S. victims of terrorism identified abroad.
These inaccuracies indicate a need for the NSD to strengthen further its
application of controls for gathering, verifying, and reporting terrorism-
related statistics.

       This audit report makes three recommendations to help the NSD
improve the accuracy and documentary support for the terrorism-related
statistics it reports. Such documentation should clearly support the
individuals, cases, or other applicable data necessary to support the overall
number or percentage reported for each statistic. Accurate statistics are
important as the data is used by Department management and Congress to
make budgetary and operational decisions.




                                       ii
                                 TABLE OF CONTENTS


INTRODUCTION ..............................................................................          1

Audit Purpose and Scope ....................................................................         2

Prior OIG Audit ..................................................................................   5

FINDING AND RECOMMENDATIONS................................................                          7

ACTIONS TAKEN BY THE NSD TO IMPLEMENT THE
RECOMMENDATIONS FROM OUR 2007 AUDIT WERE NOT
EFFECTIVE AT ENSURING THE NSD ACCURATELY REPORTED
TERRORISM-RELATED STATISTICS .................................................                       7

2007 Audit Results ............................................................................      7

The Criminal Division’s and NSD’s Responses to Our 2007 Audit
  Recommendations ..........................................................................         8

Accuracy of NSD Terrorism-related Statistics Reported Subsequent to
  Our 2007 Audit...............................................................................      9

   1. Number of convictions or guilty pleas in terrorism or
      terrorism-related cases arising from investigations primarily after
      September 11, 2001 .................................................................. 13

   2. Individuals charged with terrorism or terrorism-related crimes
      since September 11, 2001.......................................................... 15

   3. Percent increase in the number of U.S. victims of terrorism
      identified abroad ....................................................................... 17

   4. Percentage of counterterrorism cases favorably resolved................ 19

   5. Percentage of Foreign Intelligence Surveillance Act emergency
      applications processed within 7 days ........................................... 23

OIG Conclusions ................................................................................ 24

Recommendations ............................................................................. 25
STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ...... 26

ACRONYMS ..................................................................................... 27

APPENDIX I – AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY.... 28

APPENDIX II – OTHER PRIOR AUDITS AND INSPECTIONS THAT
REVIEWED OR TOUCHED UPON THE ACCURACY OF TERRORISM-
RELATED STATISTICS REPORTED BY THE DEPARTMENT ................. 36

APPENDIX III – THE NATIONAL SECURITY DIVISION’S
RESPONSE TO THE DRAFT AUDIT REPORT ...................................... 39

APPENDIX IV – OFFICE OF THE INSPECTOR GENERAL ANALYSIS
AND SUMMARY OF ACTIONS NECESSARY TO CLOSE THE
REPORT .......................................................................................... 42
                                   INTRODUCTION

      After the terrorist attacks of September 11, 2001, the Department of
Justice (Department) made the prevention of terrorism and promotion of
America’s security its primary strategic goal. 1 Department resources
devoted to preventing terrorism and promoting the nation’s security have
increased from approximately $737 million in fiscal year (FY) 2001 to
approximately $5.2 billion in FY 2011, an increase of 606 percent. In its
FY 2003 – 2008 strategic plan, the Department established the following
three objectives to accomplish its terrorism strategic goal:

       •    Prevent, disrupt, and defeat terrorist operations before they occur.

       •    Investigate and prosecute those who have committed, or intend to
            commit, terrorist acts in the United States.

       •    Combat espionage against the United States by strengthening
            counterintelligence capabilities. 2

      To show how the Department has performed against these objectives,
the Department and its component agencies gather, classify, and report a
wide range of terrorism-related statistics. For example, some of the
terrorism-related statistics reported by the Department’s National Security
Division (NSD) were the:

       •    number of individuals charged with terrorism or terrorism-related
            crimes since September 11, 2001;

       •    number of convictions or guilty pleas in terrorism or terrorism-
            related cases arising from investigations primarily after
            September 11, 2001;

       •    percentage increase in the number of U.S. victims of overseas
            terrorism identified;

       •    percentage of counterterrorism cases favorably resolved; and




       1
           U.S. Department of Justice, Strategic Plan, Fiscal Years 2012 – 2016.
       2
         The Department subsequently made minor revisions to the objectives for
accomplishing its terrorism strategic goal as noted in the Department’s Strategic Plan.


                                               1
       •   percentage of Foreign Intelligence Surveillance Act emergency
           applications processed within 7 days. 3

       The Department and its components regularly report such statistics in
budgets, annual financial statements and statistical reports, the Office of
Management and Budget’s Performance Assessment Rating Tool,
performance plans, congressional testimony, speeches, press releases, and
official publications. 4

Audit Purpose and Scope

       The purpose of our follow-up audit was to determine what actions the
National Security Division (NSD) took in response to our 2007 audit and
whether those actions improved the NSD’s ability to gather, track, classify,
verify, and report accurate terrorism-related statistics. The Department
relies on the NSD and other components to implement its counterterrorism
strategies. The NSD collects a variety of terrorism-related statistics
measuring these counterterrorism efforts.

       We identified the terrorism-related statistics reported by the NSD by:

       •   interviewing officials from the Department and the NSD; and

       •   analyzing budget submissions, congressional testimony,
           performance plans, and other documents maintained by the
           Department and the NSD.

     We identified the following 9 unique terrorism-related statistics that
were reported by the NSD 17 times in budget submissions or other
documents for FYs 2009 through 2012.




       3
          The first two statistics on charges and convictions were reported in the Department
of Justice’s Congressional Budget Submission for FY 2009. The latter three statistics – U.S.
victims of overseas terrorism, counterterrorism cases favorably resolved, and Foreign
Intelligence Surveillance Act emergency applications – were reported in the NSD’s
Performance Budget Congressional submissions for FY 2011 and FY 2012.
       4
        The Performance Assessment Rating Tool is used to identify the strengths and
weaknesses of federal programs and to develop funding and management decisions aimed
at making the programs more effective.


                                             2
                                Number         Where Statistic          Operational or
   Statistic Description        Reported        was Reported            Informational 5
 1. Number of convictions          319      Department’s FY 2009       Operational
    or guilty pleas in           through    Congressional Budget
    terrorism or terrorism-      FY 2007    Submission
    related cases arising
    from investigations            319      Fact Check: Terrorism      Informational
    primarily after              through    and Terrorism Related
    September 11, 2001           FY 2007    Prosecutions by the
                                            Bush Administration
                                            (posted to the
                                            Department’s website -
                                            www.justice.gov)
 2.   Number of individuals        512      Department’s FY 2009       Operational
      charged with terrorism     through    Congressional Budget
      or terrorism-related       FY 2007    Submission
      crimes since
      September 11, 2001           512      Fact Check: Terrorism      Informational
                                 through    and Terrorism Related
                                 FY 2007    Prosecutions by the
                                            Bush Administration
                                            (posted to the
                                            Department’s website -
                                            www.justice.gov)
 3.   Percentage increase in    400% in     NSD’s FY 2011              Operational
      the number of U.S.        FY 2009     Performance Budget
      victims of overseas                   Congressional
      terrorism identified                  Submission

                                113% in     NSD’s FY 2012              Operational
                                FY 2010     Performance Budget
                                            Congressional
                                            Submission
 4.   Percentage of             100% in     NSD’s FY 2011              Operational
      counterterrorism cases    FY 2009     Performance Budget
      favorably resolved                    Congressional
                                            Submission

                                100% in     NSD’s FY 2012              Operational
                                FY 2010     Performance Budget
                                            Congressional
                                            Submission




       5
           We focused our review on statistics used for operational purposes and excluded
statistics used for informational purposes. Operational purposes included statistics used in
budget requests, performance plans, and annual financial statements and statistical reports.
Informational purposes included statistics used in speeches, press releases, publications,
and websites. While some terrorism-related statistics were reported only once, most were
reported twice.


                                             3
                                Number          Where Statistic        Operational or
  Statistic Description        Reported          was Reported          Informational
5. Percentage of Foreign        100% in     NSD’s FY 2011             Operational
   Intelligence                 Calendar    Performance Budget
   Surveillance Act            Year 2009    Congressional
   emergency applications                   Submission
   processed within 7
   days                         100% in     NSD’s FY 2012             Operational
                                Calendar    Performance Budget
                               Year 2010    Congressional
                                            Submission
6.   Percent of U.S. victims    80% in      NSD’s FY 2011             Operational
     of terrorism provided      FY 2009     Performance Budget
     with service and                       Congressional
     compensation                           Submission
     information within 3
     business days of victim    95% in      NSD’s FY 2012             Operational
     response to Office of      FY 2010     Performance Budget
     Justice for Victims of                 Congressional
     Overseas Terrorism                     Submission
     Outreach
7.   Percentage of              100% in     NSD’s FY 2011             Operational
     counterterrorism cases     FY 2009     Performance Budget
     where classified                       Congressional
     information is                         Submission
     safeguarded (according
     to the Classified          100% in     NSD’s FY 2012             Operational
     Information Procedures     FY 2010     Performance Budget
     Act requirements)                      Congressional
     without impacting the                  Submission
     judicial process
8.   Percentage of             78% (47 of   NSD’s FY 2011             Operational
     international training      60) in     Performance Budget
     needs met                  FY 2009     Congressional
                                            Submission

                               100% (13     NSD’s FY 2012             Operational
                                of 13) in   Performance Budget
                                FY 2010     Congressional
                                            Submission
9.  Number of individuals     Greater       Statement of the        Informational
    that were charged with    than 30       Attorney General before
    terrorism violations                    the U.S. Senate
    from January to June                    Committee on the
    2009 and have been                      Judiciary on June 17,
    successfully prosecuted                 2009
    and/or sentenced in
    federal courts
    nationwide
Source: Documents as identified in the “Where Statistic was Reported” column




                                            4
       After our initial review of the nine statistics, we excluded from our
review the last statistic shown in the preceding table because the statistic
was used for informational purposes only, as opposed to operational
purposes. We interviewed NSD officials and reviewed documents showing
the actions the NSD took in response to our prior audit. To assess whether
the NSD’s actions in response to the 2007 audit improved its ability to
gather, track, classify, verify, and report accurate terrorism-related
statistics, we selected the first five statistics shown in the preceding table to
test whether the statistics were accurate. We selected these five statistics
based on: (1) our assessment of the significance of the statistic to the
Department’s counterterrorism efforts; (2) certain risk factors such as the
number of times the statistic was reported, the extent to which internal
controls were established and documented, and the extent we found
inconsistencies in the statistics reported; and (3) whether the statistic was
reviewed in the prior audit. The NSD reported the five statistics a total of
eight times for operational purposes.

       We analyzed documentation and conducted interviews with NSD
officials to determine if the information reported for each statistic was
accurate. In some cases we reviewed documentation for each item counted
in the statistic reported. In other cases we reviewed documentation for a
sample of the items counted. 6

      More details about our methodology for selecting and evaluating the
accuracy of the terrorism-related statistics reported by the NSD are
contained in Appendix I. The results of our audit work and testing are
reported in the Finding and Recommendations section of the report.

Prior OIG Audit

       In February 2007, the OIG issued an audit report on the Department’s
internal controls over reporting terrorism-related statistics. 7 The audit found
that the Department components did not accurately report terrorism-related
statistics. The Department components lacked adequate internal controls for
gathering, verifying, and reporting terrorism-related statistics.

      In the report, we made five recommendations to the Department’s
Criminal Division to assist it in improving the internal controls to ensure the

       6
          For those statistics where we reviewed a sample of items counted, the number of
incorrectly reported transactions could have been higher if we had conducted a 100 percent
review of items reported.
       7
          U.S. Department of Justice Office of the Inspector General, The Department of
Justice’s Internal Controls over Terrorism Reporting, Audit Report 07-20 (February 2007).


                                             5
accuracy of its reported terrorism-related statistics. Subsequent to the
audit, the Department’s newly established NSD took over responsibility for
corrective action on the recommendations we made to the Criminal Division.
In response to the recommendations, in November 2008 the NSD’s
Counterterrorism Section revised and republished its terrorism-related
statistics procedural circular that established and documented internal
control procedures for gathering, verifying, and reporting terrorism-related
statistics. In our judgment, the procedures, if implemented appropriately,
should ensure that statistics are accurately reported and supported.

      This current audit is a follow-up audit to our 2007 audit. In the
Finding and Recommendations section of this report, we discuss in detail the
corrective actions the NSD took in response to our prior recommendations,
as well as the results of our testing to determine whether those actions
improved the NSD’s ability to gather, track, classify, verify, and report
accurate terrorism-related statistics.

       Appendix II discusses other previous audits and inspections completed
by the OIG and Government Accountability Office (GAO) prior to our 2007
audit that reviewed or touched upon the accuracy of terrorism-related
statistics reported by the Department.




                                     6
                   FINDING AND RECOMMENDATIONS

ACTIONS TAKEN BY THE NSD TO IMPLEMENT THE
RECOMMENDATIONS FROM OUR 2007 AUDIT WERE NOT
EFFECTIVE AT ENSURING THE NSD ACCURATELY REPORTED
TERRORISM-RELATED STATISTICS

While the NSD revised its procedures for gathering, classifying, and reporting
terrorism-related statistics based on the recommendations from our 2007
audit, the NSD’s implementation of the revised procedures were not effective
at ensuring that terrorism-related statistics were reported accurately. As a
result, our testing of terrorism-related statistics reported by the NSD
subsequent to the corrective actions being implemented found that the NSD
inaccurately reported four of the five statistics we tested. Our testing
revealed that the inaccuracies likely were not by significant margins. 8
However, the inaccuracies indicate a need for the NSD to strengthen further
its application of controls for gathering, verifying, and reporting terrorism-
related statistics. Accurate statistics are important as the data is used by
Department management and Congress to make budgetary and operational
decisions.

2007 Audit Results

       Our 2007 audit found that the Criminal Division inaccurately reported
the five statistics we tested. We determined that the Criminal Division
should improve its procedures for gathering and reporting statistics. For the
five statistics we tested, we found that:

       •   two statistics were significantly understated;

       •   one statistic was understated by a minor amount;

       •   one statistic was reported accurately one time and was significantly
           understated another time it was reported; and

       •   one statistic was accurately reported one time it was reported, was
           significantly understated one time it was reported, was overstated
           by a minor amount one time it was reported, and was understated
           by a minor amount another time it was reported.



       8
          For the purposes of this audit, we considered the misreporting of a statistic as
significant if the statistic was either overstated or understated by 10 percent or more.


                                               7
      Our 2007 audit found that the statistics were inaccurately reported
primarily because the database used to track the statistics was incomplete
and not kept up-to-date. We found that the Criminal Division’s
Counterterrorism Section had not established formal procedures to:
(1) instruct staff on what data is to be reported in the database, and how
and when the data is to be reported; and (2) validate the accuracy of the
information reported in the database.

The Criminal Division’s and NSD’s Responses to Our 2007 Audit
Recommendations

      Our 2007 audit made five recommendations to strengthen the Criminal
Division’s internal controls for accurate collection and reporting of terrorism-
related statistics. We recommended that the Criminal Division:

     (1) establish and document the internal control procedures for
gathering, verifying, and reporting terrorism-related statistics;

      (2) maintain documentation to identify the source of all terrorism-
related statistics reported;

     (3) maintain documentation of the procedures and systems used to
gather or track the statistics reported;

      (4) maintain documentation of the methodologies and procedures used
to verify the accuracy of the statistics reported; and

      (5) ensure that terrorism-related statistics are not reported unless
evidence is maintained to support the statistics.

       In March 2007, the NSD informed us that it had assumed responsibility
from the Criminal Division for maintaining the terrorism-related statistics and
for addressing the recommendations we made to the Criminal Division. As a
result, in November 2008 the NSD’s Counterterrorism Section revised and
republished its terrorism-related statistics procedural circular that
established and documented internal control procedures for gathering,
verifying, and reporting terrorism-related statistics. Our review of these
documented procedures found that the NSD had developed an internal
control structure that, if implemented properly, should be sufficient to
ensure accurate reporting of terrorism-related statistics.




                                       8
Accuracy of NSD Terrorism-related Statistics Reported Subsequent to
2007 OIG Audit

       For this follow-up audit, we identified nine unique terrorism-related
statistics that were reported by the NSD in budget submissions and other
documents for FYs 2009 through 2012. As shown in the table beginning on
page 3 of the report, the NSD reported the 9 statistics a total of 17 times.

        For our initial testing during this audit, we interviewed NSD officials to
determine whether internal controls were in place and documented to ensure
the nine statistics were accurately gathered, classified, and reported. 9
Through these interviews, we learned that NSD’s Counterterrorism Section,
Office of Justice for Victims of Overseas Terrorism, and Office of Intelligence
had established internal controls to ensure all nine terrorism-related
statistics reported were accurately gathered, classified, and reported. We
found that internal controls were both established and documented as
required for seven of the nine terrorism-related statistics reported by the
NSD. Internal controls for the remaining two terrorism-related statistics
tested were established, but not documented in writing for the Office of
Justice for Victims of Overseas Terrorism, which provided us a written draft
of its internal control procedures during our testing activities.

       As explained previously, subsequent to our initial review of the nine
statistics we excluded one statistic from our review because the statistic was
used for informational purposes only as opposed to operational purposes. 10
From the remaining eight terrorism-related statistics, we selected five
statistics for detailed testing. We considered: (1) the significance of the
statistic to the Department’s counterterrorism efforts; (2) certain risk factors
such as the number of times the statistic was reported, the extent to which
internal controls were established and documented, and the extent we found


       9
          According to Office of Management and Budget Circular A-123, Management’s
Responsibility for Internal Control, internal controls are the organization, policies, and
procedures that help program and financial managers achieve results and safeguard the
integrity of their programs. The Government Accountability Office’s Standards for Internal
Control in the Federal Government require that the controls and all transactions and other
significant events be clearly documented, and that the documentation be readily available
for examination. The documentation should appear in management directives,
administrative policies, or operating manuals and may be in paper or electronic form. All
documentation and records should be properly managed and maintained.
       10
            We focused our review on statistics used for operational purposes and excluded
statistics used for informational purposes. Operational purposes included statistics used in
budget requests, performance plans, and annual financial statements and statistical reports.
Informational purposes included statistics used in speeches, press releases, publications,
and websites.


                                             9
inconsistencies in the statistics reported; and (3) whether the statistic was
reviewed in the prior audit.

       During our 2007 audit, we found that the statistics identified were
primarily reported as numbers. During this follow-up audit, we found that
the statistics identified were primarily reported as percentages instead of
numbers. For the statistics reported as numbers, we attempted to obtain a
listing of the data (charges or convictions) included in the reported numbers.
However, as discussed in detail in the following sections, the NSD did not
maintain a listing of the data at the time each statistic was reported.
Instead the NSD provided us current lists from its tracking system detailing
the numbers reported, but those lists did not match the numbers reported
for the statistics. For the statistics reported as percentages, we obtained a
listing of the data (victims, cases, or applications) that NSD officials told us
they used to calculate the percentages reported. For four of the five
statistics we tested, we selected a sample of the data from the listings
provided by the NSD and reviewed evidence to support the data reported.
Consequently, had we reviewed 100 percent of the data for each of these
four statistics, the number of improperly reported data items that we
identified could have been higher than our audit results show. For the
remaining statistic tested, the number of data items reported was relatively
low and therefore, we reviewed 100 percent of those data items.

       As shown in the following table, we found that the NSD did not
accurately report four of the five statistics we tested. We found that the
documentation that NSD provided us did not support most of the reported
statistics we tested, but it appears not by material amounts. Nevertheless,
the inaccurate reporting does indicate a need for the NSD to strengthen
further the application of its controls for gathering, verifying, and reporting
its terrorism-related statistics.




                                       10
             Description of NSD                             Results of OIG Analysis
             Statistic Reported                               and Sample Testing
1. Number of convictions or guilty pleas in      In the FY 2009 budget submission, the NSD
   terrorism or terrorism-related cases          reported 319 convictions or guilty pleas, but
   arising from investigations primarily after   the NSD did not maintain support for the
   September 11, 2001 (as of                     convictions or guilty pleas included in the
   September 30, 2007)                           reported number. The NSD provided a list
                                                 during the audit that identified 324
                                                 convictions or guilty pleas occurred during
                                                 the reporting period. We tested a sample of
                                                 34 of the 324 convictions or guilty pleas and
                                                 found no discrepancies.
2. Number of individuals charged with            In the FY 2009 budget submission, the NSD
   terrorism or terrorism-related crimes         reported 512 individuals charged, but the
   since September 11, 2001 (as of               NSD did not maintain support to show the
   September 30, 2007)                           individuals included in the reported number.
                                                 The NSD provided a list during the audit that
                                                 identified 544 individuals charged during the
                                                 reporting period. We tested a sample of 55
                                                 of the 544 individuals and found no
                                                 discrepancies.
3. Percent increase in the number of U.S.        In its FY 2011 performance budget
   victims of terrorism identified abroad        submission, the NSD reported that the
                                                 number of victims identified during FY 2009
                                                 increased by 400 percent over the number of
                                                 victims that had been identified prior to
                                                 FY 2009. The NSD provided a list of 50
                                                 victims identified through the end of
                                                 FY 2008, and an additional 200 victims
                                                 identified in FY 2009. We tested a sample of
                                                 17 of the 50 victims identified through
                                                 FY 2008 and 71 of the 200 victims identified
                                                 in FY 2009. We did not find any
                                                 discrepancies in the 17 victims tested for the
                                                 period through FY 2008. However, we found
                                                 that for 7 of the 71 victims tested for
                                                 FY 2009, the NSD did not receive address
                                                 information until FY 2010 and, consequently,
                                                 these victims should not have been counted.

                                                 In its FY 2012 performance budget
                                                 submission, the NSD reported that the
                                                 number of victims identified during FY 2010
                                                 increased by 113 percent over the number of
                                                 victims that had been identified prior to
                                                 FY 2010. The NSD provided a list of 282
                                                 victims identified in FY 2010. We tested a
                                                 sample of 94 of the 282 victims identified in
                                                 FY 2010 and did not find any discrepancies.
                                                 However, the 282 victims reported did not
                                                 include the 7 victims that were reported as
                                                 identified in FY 2009 that we found should
                                                 have been reported as identified in FY 2010.


                                             11
            Description of NSD                            Results of OIG Analysis
             Statistic Reported                            and Sample Testing
 4. Percentage of counterterrorism cases       In its FY 2011 performance budget
    favorably resolved                         submission, the NSD reported that 100
                                               percent of the counterterrorism cases closed
                                               in FY 2009 were favorably resolved. The
                                               NSD provided us a list of 59 individuals
                                               whose cases were closed in FY 2009 and the
                                               NSD officials told us that 2 of those 59
                                               individuals were incorrectly reported as
                                               having favorable outcomes. We reviewed all
                                               59 individuals and did not find any
                                               discrepancies other than the 2 discrepancies
                                               identified by the NSD.

                                               In its FY 2012 performance budget
                                               submission, the NSD reported that 100
                                               percent of the counterterrorism cases closed
                                               in FY 2010 were favorably resolved. The
                                               NSD provided us a list of 39 individuals
                                               whose cases were closed in FY 2010 and that
                                               the NSD counted as cases favorably
                                               resolved. We reviewed all 39 individuals and
                                               found 1 individual that had an outcome that
                                               was neither favorable nor unfavorable. The
                                               NSD believed the individual should not be
                                               included in the group of cases closed and we
                                               agree. However, we believe the NSD should
                                               have explained in the budget submission
                                               that one case was excluded and the basis for
                                               its exclusion.
 5. Percentage of Foreign Intelligence         In its FY 2011 performance budget
    Surveillance Act emergency applications    submission, the NSD reported that 100
    processed within 7 days                    percent of the FY 2009 Foreign Intelligence
                                               Surveillance Act emergency applications
                                               were processed within 7 days. The NSD
                                               provided us a classified list of the
                                               applications processed. Because the
                                               numbers are classified, we do not disclose
                                               these numbers in this unclassified report.
                                               We tested a sample of the applications
                                               reported and found no discrepancies.

                                            In its FY 2012 performance budget
                                            submission, the NSD reported that 100
                                            percent of the FY 2010 Foreign Intelligence
                                            Surveillance Act emergency applications
                                            were processed within 7 days. The NSD
                                            provided us a classified list of the
                                            applications processed. We tested a sample
                                            of the applications reported and found no
                                            discrepancies.
Source: OIG analysis of NSD documentation for the statistics tested


                                              12
      We determined that the statistics reported by the NSD were inaccurate
for the following reasons.

      •   The NSD’s Counterterrorism Section did not maintain
          documentation detailing the data reported for statistics on
          convictions, charges, and cases favorably resolved at the time the
          numbers were reported. Until early 2010, the Counterterrorism
          Section was using an electronic spreadsheet application to track
          cases. Using the electronic spreadsheet, the Counterterrorism
          Section counted its statistics manually, which increased the risk of
          human error. In early 2010, the Counterterrorism Section
          established a new case tracking system that, in our judgment,
          reduced the potential for human error.

      •   The NSD’s Office of Justice for Victims of Overseas Terrorism did not
          have written internal control procedures for gathering, tracking,
          verifying, and reporting its terrorism-related statistic on U.S.
          victims of terrorism identified abroad because the Office was
          relatively new, was switching from a manual tracking system to an
          automated tracking system, and was still developing the process at
          the time the statistic was reported. During the audit, the Office
          drafted the internal control procedures.

      Our detailed testing results for the five statistics are discussed in the
following sections:

1. Number of convictions or guilty pleas in terrorism or terrorism-
   related cases arising from investigations primarily after
   September 11, 2001

      In the Department’s FY 2009 Congressional Budget submission, the
NSD reported that through September 30, 2007, it had obtained 319
convictions or guilty pleas in terrorism or terrorism-related cases arising
from investigations primarily conducted after September 11, 2001.

       We requested that the NSD provide us a listing of the 319 individuals
reported as being convicted or having pled guilty, along with documentation
to support that each conviction or guilty plea was in a terrorism or terrorism-
related case, and that each conviction or guilty plea occurred during the
period September 11, 2001, through September 30, 2007. An official in the
NSD’s Counterterrorism Section, who is currently responsible for tracking
such terrorism statistics, told us that he was not involved in the tracking of
this statistic at the time it was reported. The official also told us that the


                                       13
individual responsible for this statistic at the time it was reported was no
longer employed by the NSD. When we asked the Section to reproduce the
319 individuals reported with convictions or guilty pleas, it was unable to do
so. Instead, the list provided from the electronic spreadsheet showed that
324 individuals were convicted or pled guilty in terrorism or terrorism-related
cases from September 11, 2001, through September 30, 2007.

      During our discussion with the NSD Counterterrorism Section official,
he agreed that the spreadsheet is routinely updated as changes occur in the
case. Therefore, data in the spreadsheet at any given time may not match
data reported as of a previous date. Such was the case when we asked for
the system data to support the 319 convictions and guilty pleas reported. In
our judgment, the NSD should maintain the documentation available at the
time the statistic was reported that details the convictions or guilty pleas
reported for the statistic.

       We asked why the support was not maintained given that: (1) our
prior recommendation was to ensure that terrorism-related statistics are not
reported unless evidence is maintained to support the statistics, and (2) the
NSD’s revised procedures resulting from our prior recommendation require
that source documentation be maintained for reported statistics. A
Counterterrorism Section official said that his interpretation of our prior
recommendation was that it related only to statistics that were reported
outside of the NSD. He said that he did not believe that statistics reported
by the NSD within the Department were considered external to the NSD. We
explained that this interpretation of our prior report and recommendation
was inaccurate because: (1) our prior report and recommendation on
maintaining support for statistics were not limited to externally reported
statistics, and (2) supporting documentation should be maintained for all
reported statistics. Moreover, by submitting this statistic on convictions for
inclusion in the Department’s budget submission to Congress, the statistic is
reported outside of the NSD and is ultimately released publicly. Therefore,
the NSD should ensure such statistics are accurate.

       We explained to the Counterterrorism Section Chief that the electronic
spreadsheet listing provided by a member of his staff showed 324 individuals
with convictions or guilty pleas from September 11, 2001, through
September 30, 2007, but the Counterterrorism Section reported 319
individuals with convictions or guilty pleas in the budget. The Chief said he
was surprised the number was that close. The Chief thought the number
would have been further off considering they did not retain support for the
statistic. The Chief also said that part of the problem was their tracking
system. Until early 2010, the Counterterrorism Section was using an
electronic spreadsheet application to track cases. Using the electronic


                                      14
spreadsheet, the Counterterrorism Section counted its statistics manually,
which increased the risk of human error. In early 2010, the
Counterterrorism Section established a new case tracking system that, in our
judgment, minimized the potential for human error.

       To assess the accuracy of the reported statistic, we selected a sample
of 108 of the 324 individuals listed as convicted or pleading guilty in
terrorism or terrorism-related cases. We determined that 74 of the 108
individuals selected were convicted or pled guilty prior to February 4, 2005.
Because these 74 convictions or guilty pleas were included in the pool of
cases tested during our prior audit, we excluded the 74 convictions or guilty
pleas from testing during this audit. For the remaining 34 convictions or
guilty pleas, we reviewed documentation in the Public Access to Court
Electronic Records (PACER) system to verify that the individuals were
convicted or pled guilty in a terrorism or terrorism-related case, and that the
date of the conviction or guilty plea occurred during the period
September 11, 2001, to September 30, 2007. 11 If the documentation in the
PACER system did not show the conviction or guilty plea was in a terrorism
or terrorism-related case, we asked NSD officials to provide additional
information to show the conviction or guilty plea was for a terrorism or
terrorism-related case. We found that all 34 individuals tested were
convicted or pled guilty in a terrorism or terrorism-related case during the
reporting period. 12 However, because the listing provided by the NSD
showed 324 individuals were convicted or had pled guilty, instead of the 319
reported, the NSD apparently understated by at least 1.5 percent the
reported number of convictions or guilty pleas. We do not consider the
amount of this deviation to be significant.

2. Individuals charged with terrorism or terrorism-related crimes
   since September 11, 2001

       In the Department of Justice’s FY 2009 Congressional Budget
submission, the NSD reported that the Department had charged 512
individuals with terrorism or terrorism-related crimes since September 11,
2001, through September 30, 2007.

       We requested that the NSD provide us a listing of these 512
individuals. We also requested documentation supporting that each charge

       11
          PACER is an electronic public access service that allows users to obtain case
information from federal appellate, district, and bankruptcy courts via the internet.
       12
          Our testing for this statistic was based on a sample of convictions or guilty pleas
reported. While our sample testing did not identify any discrepancies, discrepancies may
have been identified based on a 100 percent review of convictions and guilty pleas reported.


                                             15
was for a terrorism or terrorism-related violation and that each charge
occurred during the period September 11, 2001, through September 30,
2007. For the same reasons as discussed for the first statistic tested on
convictions, the Counterterrorism Section did not maintain a listing of the
512 individuals reported. Likewise, the Counterterrorism Section could not
reproduce a listing showing the 512 individuals reported as charged.
Instead, a Counterterrorism Section official provided a list from the
electronic spreadsheet showing 544 individuals charged with terrorism or
terrorism-related crimes from September 11, 2001, through September 30,
2007.

       As discussed for the previous statistic, because the spreadsheet is
routinely updated as changes occur in the case, data in the spreadsheet at
any given time may not match data reported as of a previous date. Such
was the case when we asked for the system data to support the 512
reported for the number of individuals charged. Therefore, the current
spreadsheet is not adequate support for statistics reported in the past. In
our judgment, the NSD should maintain the documentation available at the
time the statistic was reported that details the individuals reported for the
statistic.

       The Counterterrorism Section Chief told us that the 512 charged
statistic was in fact reported by the Counterterrorism Section. The Chief also
told us that the period covered by the reported number was from September
11, 2001, through September 30, 2007. We explained to the Chief that the
electronic spreadsheet listing provided by a member of his staff showed 544
individuals charged, but the Counterterrorism Section reported 512
individuals charged in the Department’s 2009 budget. As for the statistic on
convictions, the Chief attributed part of the problem to the Counterterrorism
Section’s tracking systems.

       We selected a sample of 182 of the 544 individuals reported as
charged with terrorism or terrorism-related violations to perform testing to
determine the accuracy of the reported number. We determined that 127 of
the 182 individuals selected were charged prior to February 4, 2005, and
thus were included in the group of individuals charged that we tested during
our prior audit. We excluded those 127 individuals from testing during this
audit. For the remaining 55 individuals, we reviewed documentation in the
PACER system to verify that the individuals were charged with a terrorism or
terrorism-related violation, and that the date of the charge occurred during
September 11, 2001, to September 30, 2007. We found that all 55
individuals tested were charged with a terrorism or terrorism-related




                                      16
violation during the period. 13 However, because the listing provided by the
NSD showed 544 individuals charged, instead of the 512 reported as
charged, the NSD apparently understated by about 5.9 percent the
individuals charged with a terrorism or terrorism-related violation. We do
not consider the amount of this deviation to be significant.

3. Percent increase in the number of U.S. victims of terrorism
   identified abroad

Fiscal Year 2011 Performance Budget Congressional Submission

       In the NSD’s FY 2011 Performance Budget Congressional submission,
the Office of Justice for Victims of Overseas Terrorism (Office) reported that
it had increased the number of U.S. victims of overseas terrorism identified
abroad from 50 as of the end of FY 2008, to 200 through the end of
FY 2009, an increase of 300 percent. However, before submitting its
FY 2012 Performance Budget Congressional submission, the Office compared
the current data to the previously reported data and realized that it had
reported this statistic incorrectly in the FY 2011 Performance Budget. The
Office had reported that the overseas victims identified increased to 200,
when it should have reported that the overseas victims identified increased
by 200 victims identified to a total of 250 victims. The Office corrected this
error in the FY 2012 Performance Budget by showing the increase from
FY 2008 to FY 2009 was 200, or a 400 percent increase. We asked officials
of the Office of Justice for Victims of Overseas Terrorism for a listing of the
50 victims of overseas terrorism that had been identified from the inception
of the program through FY 2008, and the 200 victims reported as identified
in FY 2009.

       We selected samples of 17 of the 50 victims identified through FY 2008
and 67 of the 200 victims reported for FY 2009, and we tested the accuracy
of the reported numbers. Office of Justice for Victims of Overseas Terrorism
officials explained that individuals are not counted as victims of overseas
terrorism until the date the FBI, or other credible source provides victims’
names and addresses. 14 We reviewed documentation maintained by the

       13
           Our testing for this statistic was based on a sample of individuals reported. While
our sample testing did not identify any discrepancies, discrepancies may have been
identified based on a 100 percent review of individuals reported.
       14
          According to an official from the Office of Justice for Victims of Overseas
Terrorism, other credible sources include the State Department, United States Attorney’s
Offices, NSD’s Counterterrorism Section, United States military, or other non-government
sources that the Office of Justice for Victims of Overseas Terrorism considers credible based
on professional judgment.



                                             17
Office and the FBI showing the date the FBI provided the victims’ names and
addresses to the Office. We found that all 17 victims tested from the 50
victims identified through FY 2008 were appropriately reported as identified
since the inception of the program through FY 2008. However, we found
that 3 of the 67 victims reported as identified in FY 2009 were actually not
identified until FY 2010.15 In addition, four other victims associated with one
of the three sampled victims were inappropriately reported as identified in
FY 2009. The seven individuals incorrectly counted in FY 2009, were
U.S. victims of July 2009 suicide bombings at hotels in Jakarta, Indonesia.
However, because the victims’ names and addresses were not provided by
the FBI until January 29, 2010, they should not have been reported until
FY 2010. We discussed these inaccuracies with officials within the Office of
Justice for Victims of Overseas Terrorism, and the officials agreed that the
seven victims should have been counted in FY 2010 instead of FY 2009
statistic.

       We believe the statistic for the increase in victims of overseas
terrorism was inaccurately reported primarily because of an oversight by the
Office of Justice for Victims of Overseas Terrorism. However, we did note
that while the Office had a process for gathering, verifying, and reporting
this statistic, the process was not documented in writing. The Office did not
have written procedures because the Office was newly established in 2005,
was switching from a manual tracking system to an automated tracking
system, and was still developing the process at the time the statistic was
reported. However, at our suggestion, in October 2011, the Office
developed draft written procedures to gather, verify, and report United
States victims of overseas terror attacks. As of June 21, 2012, those draft
procedures had not been finalized.

      We concluded that the Office of Justice for Victims of Overseas
Terrorism should have reported no more than 193 victims identified in
FY 2009, instead of 200. As a result, the Office overstated by at least 3.6
percent the percentage reported for the increase in U.S. victims of overseas
terrorism identified abroad in FY 2009. We do not consider the amount of
this deviation to be significant.

Fiscal Year 2012 Performance Budget Congressional Submission

      In the FY 2012 Performance Budget Congressional submission, the
Office of Justice for Victims of Overseas Terrorism reported that it had
increased the number of U.S. victims of overseas terrorism identified abroad
       15
          Our testing for this statistic is based on a sample of victims reported. Therefore,
the number of transactions incorrectly reported could have been more based on a 100
percent review of victims reported.


                                             18
from 250 as of the end of FY 2009 to 532 through the end of FY 2010, an
increase of 113 percent. We asked officials of the Office for a listing of the
282 victims of overseas terrorism that it reported as identified during
FY 2010.

      We selected a sample of 94 of the 282 victims for testing to determine
the accuracy of the reported number. We reviewed documentation
maintained by the Office of Justice for Victims of Overseas Terrorism and the
FBI showing when the FBI or other credible source provided the victims’
names and addresses to the Office. We found that all 94 victims tested were
appropriately reported as identified during FY 2010. 16 However, as
previously discussed, we found seven victims reported as identified during
FY 2009 who should have been reported in FY 2010. As a result, the Office
understated by at least 5 percent the percentage reported for the increase in
U.S. victims of overseas terrorism identified abroad in FY 2010. We do not
consider the amount of this deviation to be significant.

4. Percentage of counterterrorism cases favorably resolved 17

Fiscal Year 2011 Performance Budget Congressional Submission

       In the NSD’s FY 2011 Performance Budget Congressional submission,
the Counterterrorism Section reported that 100 percent of its
counterterrorism cases were favorably resolved in FY 2009. We explained to
a Counterterrorism Section official that the budget did not clearly define how
this statistic was determined. In the FY 2011 budget, the NSD defined this
statistic only as including all cases closed during the fiscal year. The
definition did not contain a standard for determining whether a case was
favorably resolved, such as through any conviction, convictions on certain
charges, convictions with certain punishment or length of sentence, or some
other standard. Without such a standard, it is not apparent what cases are
counted when calculating this statistic. In addition, the definition did not
explain how a case was counted when the case involved multiple defendants
with different outcomes, such as convicted, acquitted, or dismissed. We
asked whether the statistic related to: (1) cases resolved favorably for the
government or (2) defendants for whom charges were resolved favorably for
the government. After discussion with us, the official said that the statistic

       16
         Our testing for this statistic is based on a sample of victims reported. While our
sample testing did not identify any discrepancies, discrepancies may have been identified
based on a 100 percent review of victims reported.

       17
            As discussed in the following text, the NSD’s performance budget submissions did
not include a standard for “favorably resolved,” so it is difficult to determine the accuracy of
this statistic.


                                              19
was based on defendants and not cases because of the difficulty in making a
determination when the cases involve multiple defendants with different
outcomes.

        We requested that the NSD provide us a listing of the defendants
associated with the reported percentage of cases favorably resolved in
FY 2009. A Counterterrorism Section official told us that the NSD did not
retain a list or number associated with the reported percentage because the
NSD’s electronic spreadsheet application supported the results and those
results could be produced upon request. We asked the official to provide us
a listing of all defendants charged with terrorism or terrorism-related
violations who had those charges resolved (convicted, acquitted, dismissed,
or other resolution) during FY 2009. The official provided us a listing of 59
such defendants. We compared this listing to a listing we previously
obtained from the NSD showing: (1) all defendants charged with terrorism
or terrorism-related violations since September 11, 2001; (2) the outcome,
if any, of those charges; and (3) the date of the outcome. Based on the
comparison, we concluded that the list of 59 defendants with resolution of
charges in FY 2009 was complete.

      After providing us the listing of 59 defendants with favorable resolution
action in FY 2009, a Counterterrorism Section official performed an analysis
of the actions for these defendants and determined that 2 of the 59
defendants were incorrectly counted as having favorable outcomes. Both of
these defendants were acquitted of the charges.

       We also reviewed the documentation in the PACER system to verify
that all 59 defendants were charged with a terrorism or terrorism-related
violation, and to determine whether the defendants’ charges were resolved
favorably for the government during FY 2009. Our review confirmed that the
charges for 2 of the 59 defendants were not favorably resolved in FY 2009.
Below are details for the two cases which were not supported by the
evidence.

      •   The defendant was charged with transporting explosive materials
          without a license or permit and carrying an unregistered weapon.
          The jury acquitted the defendant on both charges.

      •   The defendant was charged with: (1) one count of material support
          to a foreign terrorist organization, (2) one count of material support
          to a foreign terrorist, (3) one count of conspiracy to destroy
          buildings by explosives, and (4) one count of seditious conspiracy.
          The jury acquitted the defendant on all four counts.



                                       20
     As a result, the NSD overstated by about 3 percent the reported
counterterrorism cases favorably resolved in FY 2009. We do not consider
the amount of this deviation to be significant.

      We discussed the discrepancy with the Counterterrorism Section Chief,
who said the Counterterrorism Section did not retain listings of defendants
and documents showing the outcome of the charges against these
defendants because the support would be voluminous and require a large
amount of file space. The Chief also reiterated that part of the problem was
the Counterterrorism Section’s electronic spreadsheet tracking system that
has subsequently been replaced with a new tracking system that in our
judgment is more effective.

Fiscal Year 2012 Performance Budget Congressional Submission

       In the NSD’s FY 2012 Performance Budget Congressional submission,
the Counterterrorism Section reported that 100 percent of its
counterterrorism cases were favorably resolved in FY 2010. We noted the
same problem with the FY 2012 budget not containing a clear definition of
how this statistic was determined. In the FY 2012 budget, the NSD defined
this statistic as counterterrorism cases closed during the fiscal year that
resulted in court judgments favorable to the government. However, like for
the FY 2011 budget, the definition did not: (1) contain a standard for
determining whether a case was favorably resolved; and (2) explain how a
case was counted when the case involved multiple defendants with different
outcomes, such as convicted, acquitted, or dismissed. Again, the
Counterterrorism Section official said that the statistic was based on
defendants and not cases because of the difficulty in making a determination
when the cases involve multiple defendants with different outcomes.

        We requested that the NSD provide us a listing of the defendants
associated with the reported percentage of cases favorably resolved in
FY 2010. A Counterterrorism Section official told us that the NSD did not
retain a list or number associated with the reported percentage because the
NSD’s electronic spreadsheet application supported the results and those
results could be produced upon request. We asked the official to provide us
a listing of all defendants charged with terrorism or terrorism-related
violations who had those charges resolved (convicted, acquitted, dismissed,
or other resolution) during FY 2010. The official provided us a listing of 41
defendants, but the official told us that the NSD did not include 2 of the 41
defendants in the pool of defendants whose charges were resolved in FY
2010. The rationale for excluding these two defendants is explained below.




                                     21
      •   One defendant excluded was believed to have been killed in
          September 2010 during a foreign government operation. However,
          the charges against the defendant had not been dismissed as of the
          end of FY 2010.

      •   The other excluded defendant was considered to be a fugitive and
          the charges against this defendant were still pending as of the end
          of FY 2010.

      We believe it was appropriate not to include these two defendants in
the calculation since there was no formal resolution action on the charges
during FY 2010.

       We compared the listed information for the remaining 39 defendants to
a listing we previously obtained from the NSD showing: (1) all defendants
charged with terrorism or terrorism-related violations since September 11,
2001; (2) the outcome, if any, of those charges; and (3) the date of the
outcome. Based on the comparison, we concluded that the list of 39
defendants with resolution of charges in FY 2010 was complete.

      After providing us the listing of 39 defendants with favorable resolution
action in FY 2010, the Counterterrorism Section official performed an
analysis of the actions for these defendants and determined that all 39
defendants were correctly counted as having favorable outcomes.

      We reviewed the documentation in the PACER system to verify that all
39 defendants were charged with a terrorism or terrorism-related violation
and to determine whether the defendants’ charges were resolved favorably
for the government during FY 2010. Our review noted that 1 of the 39
defendants did not have a favorable outcome for the government in FY 2010
as explained below.

      •   The defendant was charged in the District of Colorado for making
          false statements to a federal agent in a matter involving
          international and domestic terrorism. The case against the
          defendant was dismissed in the District of Colorado on February 1,
          2010, because, according to the Counterterrorism Section Chief, the
          defendant was part of another ongoing case being prosecuted in the
          Eastern District of New York. In conjunction with the dismissal, the
          defendant was ordered to appear in the Eastern District of New York
          on the other charges. Subsequent to the dismissal of the charges in
          the District of Colorado, the defendant was also charged during July
          2011 in the Southern District of New York with fraud and misuse of
          visas and permits.


                                      22
            During FY 2011, a jury in the Eastern District of New York found the
            defendant guilty of conspiracy to obstruct justice and obstruction of
            justice that entailed destroying and concealing evidence, providing
            false statements, and encouraging others to testify falsely. During
            FY 2012, the defendant pled guilty in the Southern District of New
            York to the visa fraud and agreed to consent to the disposition of
            the case in the Eastern District of New York. The defendant was
            sentenced for the convictions in both cases on February 10, 2012.

      The Counterterrorism Section Chief said that the dismissal of the
charges against the defendant in the District of Colorado in FY 2010 was a
neutral outcome as it was neither favorable nor unfavorable. The Chief
believed that the case should not have been included in the group of cases
counted for this statistic since the individual was re-charged in another case.
We agree that it would have been appropriate to not include this case in the
group given the circumstances.

5. Percentage of Foreign Intelligence Surveillance Act emergency
applications processed within 7 days

      In the FY 2011 Performance Budget Congressional submission, the
NSD reported that 100 percent of its emergency applications made pursuant
to the Foreign Intelligence Surveillance Act of 1978, as amended (the FISA
Act) for calendar year 2009 were processed within 7 days. The FISA Act
requires that an emergency application be submitted to the FISA Court
within 7 days after the Attorney General, or his designee as defined by the
statute, approves the emergency authorization. To meet operational needs,
the NSD’s practice is to file these applications with enough time for the FISA
Court judge to rule on the applications within 7 days after the Attorney
General, or his designee, approves the emergency authorization.

      We obtained a list of the calendar year 2009 FISA emergency
applications from the NSD’s Office of Intelligence’s FISA Case Tracking
System and associated with the 100 percent statistic reported by NSD. 18 We
selected a sample of the calendar year 2009 FISA emergency applications for
testing to determine the accuracy of the reported percentage.

     For each of the sampled emergency applications, we reviewed whether
the amount of time between when the Attorney General, or his designee,



       18
           The numbers associated with this statistic are classified and therefore are not
disclosed in this unclassified report.


                                              23
approved the emergency authorization and when a FISA Court judge
approved the application was no more than 7 days.

      We found that all sampled emergency applications for emergency
authorization were approved by a FISA Court judge within 7 days of the date
the Attorney General, or his designee, initially approved the authorization.

      In the FY 2012 Performance Budget Congressional submission, the
NSD reported that 100 percent of its FISA emergency applications for
calendar year 2010 were processed within 7 days.

      We obtained a list of the calendar year 2010 FISA emergency
applications from the NSD’s Office of Intelligence’s FISA Case Tracking
System and associated with the 100 percent statistic reported by NSD. We
selected a sample of the calendar year 2010 FISA emergency applications for
testing to determine the accuracy of the reported percentage.

     For each of the sampled emergency applications, we reviewed whether
the amount of time between when the Attorney General, or his designee,
approved the emergency authorization and when a FISA Court judge
approved the application was no more than 7 days.

      We found that all sampled emergency applications for emergency
authorization were approved by a FISA Court judge within 7 days of the date
the Attorney General, or his designee, initially approved the authorization.

OIG Conclusions

      Overall, we found that the NSD had improved its reporting of
terrorism-related statistics, but additional improvements are needed to
ensure accurate reporting of all statistics. The NSD had revised its
procedures for gathering, verifying, classifying, and reporting its statistics
based on the recommendations from our 2007 audit, but the NSD’s
implementation of those revised procedures were not effective to ensure the
accuracy of most of the statistics we tested. During our 2007 audit, all five
of the statistics reported by the Criminal Division, for which the NSD now has
responsibility, were reported inaccurately. In this follow-up audit, four of the
five NSD statistics we tested were reported inaccurately. While the
inaccuracies were not by significant margins, these inaccuracies are
important because Department management and Congress need accurate
terrorism-related statistics to make informed budgetary and operational
decisions.




                                      24
Recommendations:

   We recommend that the NSD:

1. Ensure that established procedures for maintaining documentation to
   support all terrorism-related statistics reported are followed. Such
   documentation should contain a list of the individuals, cases, or other
   applicable data necessary to verify the overall number or percentage
   reported for each statistic.

2. Ensure that the draft procedures developed by the Office of Justice for
   Victims of Overseas Terrorism for gathering, verifying, and reporting its
   terrorism-related statistics are formally published.

3. Ensure that the definitions included in the budget for reported statistics
   clearly identify how the group of items counted for each statistic was
   determined.




                                      25
               STATEMENT ON COMPLIANCE WITH
                   LAWS AND REGULATIONS

      As required by the Government Auditing Standards, we tested the
NSD’s processes, controls, and records to obtain reasonable assurance that
the Department complied with laws and regulations that, if not complied
with, could have a material effect on the NSD’s ability to report terrorism-
related statistics accurately. Compliance with laws and regulations
applicable to the NSD’s reporting of such statistics is the responsibility of
NSD management. An audit includes examining, on a test basis, evidence
about compliance with laws and regulations. The specific laws and
regulations we reviewed included the relevant portions of the Office of
Management and Budget Circular A-123, Management’s Responsibility for
Internal Control.

      Except for instances of non-compliance identified in the Finding and
Recommendations section of this report, the NSD complied with the laws and
regulations cited above. With respect to those activities not tested, nothing
came to our attention that caused us to believe that the NSD was not in
compliance with the laws and regulations cited above.




                                      26
                     ACRONYMS

  Acronym    Description
Department   Department of Justice
EOUSA        Executive Office for United States Attorneys
FBI          Federal Bureau of Investigation
FISA         Foreign Intelligence Surveillance Act
FY           Fiscal Year
GAO          Government Accountability Office
NSD          National Security Division
OIG          Department of Justice Office of the Inspector
             General
PACER        Public Access to Court Electronic Records
PENTTBOM     Pentagon/Twin Towers Bombing Investigation




                        27
                                                               APPENDIX I

       AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

       Our objectives were to determine if the: (1) NSD took appropriate
actions to implement the recommendations from our 2007 audit; and
(2) corrective actions implemented improved the NSD’s ability to gather, track,
classify, verify, and report accurate terrorism-related statistics. We conducted
this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. Our audit concentrated on, but was not limited
to, the period subsequent to the issuance of our prior audit in February 2007
through April 2, 2012.

     We performed the following work at the NSD located in
Washington, D.C.:

      1. As shown in the following table, we developed a group of 9 unique
         terrorism-related statistics reported by the NSD 17 times in budget
         submissions or other documents for FY 2009 through FY 2012 by:

            •   interviewing key NSD personnel regarding internal and
                external documents in which terrorism-related statistics are
                reported; and

            •   reviewing the documents identified through interviews and
                searches for terrorism-related statistics.




                                      28
                                 Number         Where Statistic          Operational or
   Statistic Description         Reported       was Reported            Informational 19
 1. Number of convictions           319      Department’s FY 2009      Operational
     or guilty pleas in           through    Congressional Budget
     terrorism or terrorism-      FY 2007    Submission
     related cases arising
     from investigations            319      Fact Check: Terrorism     Informational
     primarily after              through    and Terrorism Related
     September 11, 2001           FY 2007    Prosecutions by the
                                             Bush Administration
  2.   Number of individuals       512 in    Department’s FY 2009      Operational
       charged with               FY 2007    Congressional Budget
       terrorism-related                     Submission
       crimes since
       September 11, 2001          512 in    Fact Check: Terrorism     Informational
                                  FY 2007    and Terrorism Related
                                             Prosecutions by the
                                             Bush Administration
  3.   Percent increase in the   400% in     NSD’s FY 2011             Operational
       number of U.S.            FY 2009     Performance Budget
       victims of terrorism                  Congressional
       identified abroad                     Submission

                                 113% in     NSD’s FY 2012             Operational
                                 FY 2010     Performance Budget
                                             Congressional
                                             Submission
  4.   Percentage of             100% in     NSD’s FY 2011             Operational
       counterterrorism          FY 2009     Performance Budget
       cases favorably                       Congressional
       resolved                              Submission

                                 100% in     NSD’s FY 2012             Operational
                                 FY 2010     Performance Budget
                                             Congressional
                                             Submission
  5.   Percentage of Foreign      100% in    NSD’s FY 2011             Operational
       Intelligence               Calendar   Performance Budget
       Surveillance Act          Year 2009   Congressional
       emergency                             Submission
       applications processed
       within 7 days              100% in    NSD’s FY 2012             Operational
                                  Calendar   Performance Budget
                                 Year 2010   Congressional
                                             Submission


       19
            We focused our review on statistics used for operational purposes and excluded
statistics used for informational purposes. Operational purposes included statistics used in
budget requests, performance plans, and annual financial statements and statistical reports.
Informational purposes included statistics used in speeches, press releases, publications,
and websites. While some terrorism-related statistics were reported only once, most were
reported twice.


                                             29
                             Number          Where Statistic        Operational or
  Statistic Description      Reported         was Reported          Informational
6. Percent of U.S. victims    80% in      NSD’s FY 2011            Operational
    of terrorism provided     FY 2009     Performance Budget
    with service and                      Congressional
    compensation                          Submission
    information within 3
    business days of          95% in      NSD’s FY 2012            Operational
    victim response to        FY 2010     Performance Budget
    Office of Justice for                 Congressional
    Victims of Overseas                   Submission
    Terrorism Outreach
7. Percentage of              100% in     NSD’s FY 2011            Operational
    counterterrorism          FY 2009     Performance Budget
    cases where classified                Congressional
    information is                        Submission
    safeguarded according
    to the Classified         100% in     NSD’s FY 2012            Operational
    Information               FY 2010     Performance Budget
    Procedures Act                        Congressional
    requirements without                  Submission
    impacting the judicial
    process
8. Percentage of             78% (47 of   NSD’s FY 2011            Operational
    international training     60) in     Performance Budget
    needs met                 FY 2009     Congressional
                                          Submission

                             100% (13     NSD’s FY 2012            Operational
                              of 13) in   Performance Budget
                              FY 2010     Congressional
                                          Submission
9.  Number of individuals     Greater     Statement of the         Informational
    that were charged         than 30     Attorney General
    with terrorism                        before the U.S. Senate
    violations from                       Committee on the
    January to June 2009                  Judiciary on June 17,
    and have been                         2009
    successfully
    prosecuted and/or
    sentenced in federal
    courts nationwide
Source: Documents as identified in the “Where Statistic was Reported” column

        After our initial review of the nine statistics, we excluded from our
        review the last statistic shown in the preceding table because the
        statistic was used for informational purposes only as opposed to
        operational purposes.




                                          30
2. We reviewed documentation and interviewed NSD officials to
   identify the following information for each of the remaining eight
   terrorism-related statistics reported for:

       •   the period covered by the statistic;

       •   the key NSD personnel responsible for tracking and reporting
           the statistic and what mechanisms were used to track the
           statistics; and

       •   the processes used to report the statistics and the internal
           controls established to ensure the accuracy of the reported
           statistics.

3. Of the eight operational statistics, two were reported during the
   prior audit and were also reported subsequent to the prior audit
   with updated data. During this follow-up audit, we selected those
   two statistics, which are described below, for follow-up testing.

              Previously Reported Terrorism-Related Statistics
                        Selected for Detailed Testing


          Description of Statistic            System Used to Track Statistic
1. Number of convictions or guilty pleas in   Counterterrorism Section’s
   terrorism or terrorism-related cases       electronic spreadsheet application
   arising from investigations primarily
   after September 11, 2001
2. Number of individuals charged with         Counterterrorism Section’s
   terrorism-related crimes since             electronic spreadsheet application
   September 11, 2001

4. For the remaining six operational statistics, we used a risk level to
   decide which statistics to test by developing a method to weigh the
   level of risk that the operational statistics were reported
   accurately. We came up with the following six categories of risk
   and used a risk rating scale of one to three within each category
   with one being relatively low risk and three being relatively high
   risk.




                                       31
                     OIG’s Methodology for Measuring
                    Risk of Terrorism-Related Statistics
                       Risk Category/                     Risk
                      Rating Elements                    Rating
     1.   Frequency of use
          Reported 1 to 3 times                            1
          Reported 4 to 10 times                           2
          Reported 11 to 35 times                          3
     2.   Internal controls
          Established and documented                       1
          Established but not documented                   2
          Not established                                  3
     3.   Magnitude of the statistic
          reported
          From 0 to 100                                    1
          From 101 to 1,000                                2
          Greater than 1,000, to include any dollar-
          related numbers, percentages, and hours          3
     4.   Inconsistencies in statistics
          reported
          No inconsistencies                               1
          One inconsistency                                2
          Multiple inconsistencies                         3
     5.   Reported in informational formats
          by others
          Reported by other than the Attorney
          General, Deputy Attorney General, FBI            1
          Director, or EOUSA
          Reported by EOUSA                                2
          Reported by the Attorney General, Deputy
          Attorney General, or FBI Director                3
     6.   Preciseness of the statistic
          reported
          No operational statistics in group are
          precisely stated                                 1
          Some operational statistics in group are
          precisely stated                                 2
          All operational statistics in group are
          precisely stated                                 3

We calculated an overall average risk score for each of the
six operational statistics by adding the risk rating assigned for each
of the six risk categories and then dividing this sum by six. We
selected the following three of the six operational statistics for
audit testing based on the risk rating we calculated and on our
judgment of the significance of the statistic to the war on terror.




                                   32
          New Terrorism-Related Statistics Selected for Detailed Testing

                                                      System Used to Track
              Description of Statistic                       Statistic
      1. Percent increase in the number of       Victims of Overseas Terrorism
         U.S. victims of terrorism identified    Tracking Tool
         abroad
      2. Percentage of counterterrorism cases    Counterterrorism Section’s
         favorably resolved                      electronic spreadsheet
                                                 application
       3. Percentage of Foreign Intelligence     Office of Intelligence’s FISA Case
          Surveillance Act emergency             Tracking System
          applications processed within 7 days

      5. We interviewed NSD officials and reviewed supporting
         documentation to determine whether the five operational statistics
         selected for testing were accurately reported.

Methodology for Sampling the NSD Statistics

      For four of the five NSD operational statistics that we selected for
detailed testing, we selected samples for the six times the four statistics
were reported by:

      •   obtaining a listing showing the data (charges, convictions, guilty
          pleas, victims, cases, or applications) reported for each statistic;
          and

      •   selecting one third of the data items to test.

     The samples were not statistically designed to enable projection of the
sample results to the entire population of data reported for each statistic.

       For the remaining operational statistic, we obtained a listing showing
the data reported for the statistic and we selected all the data for testing
because the total data items reported was small. The following table shows
the number of data items selected for each of the eight times the five
statistics were reported.




                                            33
                       Samples Selected for NSD Statistics Tested

                                                      Data Items
                              Data Items           Provided by NSD           Data Items
Statistic Description          Reported              During Audit              Tested
1. Number of                  319 through                324                    108 20
   convictions or guilty        FY 2007
   pleas in terrorism or
   terrorism-related
   cases arising from
   investigations
   primarily after
   September 11,
   2001
2. Number of                  512 through                 544                    182 21
   individuals charged          FY 2007
   with terrorism-
   related crimes since
   September 11,
   2001
3. Percent increase in      400% in FY 2009               200                     88 22
   the number of U.S.
   victims of terrorism     113% in FY 2010               282                      94
   identified abroad
4. Percentage of            100% in FY 2009                59                      59
   counterterrorism
   cases favorably          100% in FY 2010                39                      39
   resolved




       20
           We initially selected a sample of 108 of the 324 individuals convicted of terrorism
or terrorism-related violations. However, 74 of the 108 individuals selected were convicted
prior to February 4, 2005, and therefore were included in the group of individuals convicted
that we tested during our prior audit. Therefore, we excluded those individuals from testing
during this audit, leaving 34 individuals tested during this audit.
       21
           We initially selected a sample of 182 of the 544 individuals charged with terrorism
or terrorism-related violations. However, 127 of the 182 individuals selected were charged
prior to February 4, 2005, and therefore were included in the group of individuals charged
that we tested during our prior audit. Therefore, we excluded those individuals from testing
during this audit, leaving 55 individuals tested during this audit.
       22
           To calculate the percentage increase reported, the NSD divided the number of
victims identified in FY 2009, by the baseline of 50 victims that had been identified prior to
FY 2009. We selected a sample of 17 of these 50 victims to test the accuracy of the
baseline number used in the NSD’s calculation. We also selected a sample of 67 of the 200
victims identified during FY 2009. Based on a reporting deficiency we found for 1 of the 67
victims tested, we also tested 4 additional victims associated with the victim for which we
found the reporting deficiency.



                                              34
                                                      Data Items
                             Data Items            Provided by NSD   Data Items
 Statistic Description        Reported               During Audit      Tested
5. Percentage of           100% in Calendar          See footnote 23See footnote23
   Foreign Intelligence       Year 2009
   Surveillance Act
   emergency              100% in Calendar     See footnote23       See footnote23
   applications              Year 2010
   processed within 7
   days
Source: The Department’s Congressional Budget Submissions and the NSD’s Performance
          Budget Congressional Submissions




       23
           The numbers associated with this statistic are classified and therefore are not
disclosed in this unclassified report.


                                              35
                                                                  APPENDIX II

OTHER PRIOR AUDITS AND INSPECTIONS THAT REVIEWED
   OR TOUCHED UPON THE ACCURACY OF TERRORISM-
  RELATED STATISTICS REPORTED BY THE DEPARTMENT

      Besides our 2007 audit of the Department’s internal controls over
reporting terrorism-related statistics, we identified other previous audits and
inspections by the Office of the Inspector General (OIG) and Government
Accountability Office (GAO) that reviewed or touched upon the accuracy of
terrorism-related statistics reported by the Department.

      As noted in our 2007 audit report, the OIG previously reviewed 48
terrorism-related statistics or supporting systems and made
recommendations to correct deficiencies identified. The results of these
reviews were included in the following nine audit and inspections reports
issued from September 2003 through September 2005.

                                                      Report         Date
                     Report Title                    Number         Issued
    Follow-up Audit of the Department of Justice      03-33     September 2003
    Counterterrorism Fund
    Federal Bureau of Investigation Casework          03-37     September 2003
    and Human Resource Allocation
    The Federal Bureau of Investigation’s Foreign     04-25       July 2004
    Language Program – Translation of
    Counterterrorism and Counterintelligence
    Foreign Language Material
    Internal Effects of the Federal Bureau of         04-39     September 2004
    Investigation’s Reprioritization
    The Federal Bureau of Investigation’s Efforts     05-20       May 2005
    to Hire, Train, and Retain Intelligence
    Analysts
    Review of the Terrorist Screening Center          05-27       June 2005
    The Department of Justice’s Terrorism Task     I-2005-007     June 2005
    Forces, Evaluation and Inspections
    The Federal Bureau of Investigation’s Foreign     05-33       July 2005
    Language Translation Program Follow-Up
    External Effects of the Federal Bureau of         05-37     September 2005
    Investigation’s Reprioritization Efforts
    Source: OIG audit, review, and inspection reports




                                         36
       In a January 2003 report, the GAO reported on the Department’s need
for better controls and oversight of terrorism-related statistics. 24 The GAO
reported that in FY 2001 the Department switched from using the FBI’s
terrorism-related conviction statistics to using those of EOUSA for its annual
report because of: (1) concerns raised by a newspaper article’s allegation
that the Department had inflated its terrorism numbers in its FY 2000
Performance Report, 25 and (2) an effort to report conviction statistics that
would be less likely to be misinterpreted. Prior to FY 2002, the FBI and
EOUSA used different criteria to classify cases and resulting convictions as
terrorism-related, resulting in differences in how each entity ultimately
classified a case. Consequently, the total number of convictions classified by
the FBI and EOUSA as terrorism-related differed. Also, because EOUSA
prosecutes federal cases, its classification system only includes federal
convictions, while the FBI’s classification system also includes convictions in
state, local, and international courts obtained with the FBI’s investigative
assistance. The GAO reported that the Department did not have sufficient
management oversight and internal controls in place to ensure the accuracy
and reliability of terrorism-related conviction statistics included in its annual
performance reports.

       In a March 2004 report, the GAO reported on: (1) the guidance and
procedures followed by federal law enforcement agencies regarding counting
investigations and arrests, and (2) how investigations and arrests statistics
are used. 26 The report also discussed whether multiple agencies were
counting and reporting the same investigations and arrests. The GAO
concluded that law enforcement agencies often count the same
investigations and arrests resulting from joint operations and present these
statistics in their public documents and budget justifications. The GAO also
observed that: (1) none of the law enforcement agencies reviewed have a
central repository of joint investigations and arrests, and (2) not all of the
agencies distinguish between unilateral and joint arrests and investigations
within their databases. The GAO concluded that making this distinction
       24
          U.S. General Accounting Office, Justice Department: Better Management
Oversight and Internal Controls Needed to Ensure Accuracy of Terrorism-Related Statistics,
GAO-03-266 (January 2003). On July 7, 2004, the GAO was renamed the Government
Accountability Office.
       25
          Mark Fazlollah and Peter Nicholas, “U.S. Overstates Arrests in Terrorism,” The
Philadelphia Inquirer, December 16, 2001.
       26
           U.S. General Accounting Office, Federal Law Enforcement: Information on the
Use of Investigation and Arrest Statistics, GAO-04-411 (March 2004). The GAO reviewed
six federal agencies: the Drug Enforcement Administration; FBI; United States Marshals
Service; the former U.S. Customs Service and Immigration and Naturalization Service, now
part of the Department of Homeland Security; and United States Postal Inspection Service.



                                            37
would help Congress when making budget decisions related to these
agencies.




                                   38
                                                                         APPENDIX III

        THE NATIONAL SECURITY DIVISION’S RESPONSE TO
                 THE DRAFT AUDIT REPORT

                                                     U.S. Department of Justice


                                                     National Security Division


Office of the Assistant Attorney General                          Washington DC 20530



                                                     August 20, 2012


Michael E. Horowitz
Inspector General
U.S. Department of Justice
Washington, DC 20530


       Re:      Response to the Follow-Up Audit of the Department of Justice's Internal Controls
                Over Reporting of Terrorism-Related Statistics: The National Security Division


Dear Inspector General Horowitz:

        Thank you for the opportunity to provide a response to the Office of the Inspector
General (OIG) report on its Follow-Up Audit of the Department of Justice's Internal Controls
Over Reporting of Terrorism-Related Statistics: The National Security Division. I have
attached the results of the National Security Division (NSD)'s sensitivity review, as well as
NSD's official response, concurring with each of the recommendations in this Report and
setting out the actions that NSD has taken to address each of them.

       Please let me know if NSD can be of further assistance on this or any other issue.

                                                    Sincerely,



                                                     Lisa O. Monaco
                                                     Assistant Attorney General
                                                     National Security Division


                                              39
                                  National Security
                                      Division
  Response to Follow-up of the Department of Justice's Internal Controls Over Reporting
                                           of
                    Terrorism-Related Statistics: National Security
                                       Division

        The National Security Division (NSD) appreciates that the OIG acknowledges in its
report regarding its Follow-up of the Department of Justice's Internal Controls Over
Reporting of Terrorism-Related Statistics: National Security Division (Report) that NSD has
"improved its reporting of terrorism related statistics," in part through the revision of its
procedures for gathering, verifying, classifying, and reporting those figures. See Report, page
24. As the
Report acknowledges, NSD's statistics did not appear to be significantly overstated or
understated; nevertheless, we agree that NSD's implementation of its revised procedures has
not been fully effective at ensuring accurate reporting, and that the controls NSD has in place
for gathering, verifying, and reporting its terrorism-related statistics should be further
strengthened.

         NSD is committed to ensuring that investigations and casework related to terrorism and
terrorist threats are reported accurately and, as further outlined below, has already taken steps
to implement all three of the OIG's recommendations.


Recommendation 1. Ensure that established procedures for maintaining documentation to
support all terrorism-related statistics reported are followed. Such documentation should
contain a list of the individuals, cases, or other applicable data necessary to verify the
overall number or percentage reported for each statistic.

   • Resolved. NSD concurs with this recommendation, and going forward, its
     Counterterrorism Section (CTS) will maintain both an electronic snapshot and a hard
     copy record of the data from its case tracking system used to support operational
     statistics at the time such statistics are reported in NSD budget, Congressional, or other
     documents.


Recommendation 2. Ensure that the draft procedures developed by the Office of Justice
for Victims of Overseas Terrorism for gathering, verifying, and reporting its terrorism-
related statistics are formally published.

   • Action complete. NSD concurs with this recommendation, and in July 2012, the Office
     of Justice for Victims of Overseas Terrorism (OVT) published its Victims of Overseas
     Terrorism Tracking Tool Circular Protocol for all OVT employees. It is available on a
     part of NSD's intranet accessible to OVT employees. The Tracking Tool is an
     automated organization and management system that enables the OVT promptly to



                                               40
       access information about the criminal justice response to overseas attacks with U.S.
       citizen victims and OVT's efforts to assist those victims. The Circular Protocol explains
       in
       detail how the Tracking Tool functions and the roles played by OVT personnel.

   • Technical comment. OVT has assessed that on page 11, box 3, the total number of
     victims that OIG sampled for 2009 was 71, not 67. Following OIG's assessment that 3
     of
     67 victims were missing address information, OIG reviewed an additional four
     victims from the same case in which missing information was found, and those four
     were also found to be missing address information. These four victims were included
     in the number of victims reported by OIG as "actually not verified until FY 2010,"
     and thus should also be included in the total number of victims reviewed by OIG.
     OVT suggests that the result included in box 3 would be accurate if changed to state:
     However, we found that for 7 of 71 victims tested for FY 2009 NSD did not receive
     address information until FY 2010 and should not have been counted."


Recommendation 3. Ensure that the definitions included in the budget for reported statistics
clearly identify how the group of items counted for each statistic was determined.

   • Action complete. NSD concurs with this recommendation, and has changed its
     budget language for current and future budget presentations to more clearly articulate
     how data is grouped to calculate the terrorism-related statistics reported in those
     documents (e.g., statistics-reflecting "cases" favorably resolved has been changed to
     "defendants" whose cases were favorably resolved). Going forward, the NSD
     Executive Office, in coordination with CTS and NSD leadership, will continue to
     ensure that NSD budget documents clearly and consistently define the data behind
     reported terrorism-related statistics.

        Because NSD already has addressed each of these recommendations by improving its
controls over reporting of terrorism-related statistics, we believe that no further actions are
required. NSD is committed to effectively implementing these recommendations on a
continuing basis, so that we can ensure that investigations and casework related to terrorism
and terrorist threats are reported accurately.
                                                                                                   2




                                               41
                                                           APPENDIX IV


              OFFICE OF THE INSPECTOR GENERAL
             ANALYSIS AND SUMMARY OF ACTIONS
               NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft of this audit report to the NSD. The NSD’s
response is incorporated in Appendix III of this final report. The following
provides the OIG analysis of the response and summary of actions necessary
to close the report.

Recommendation Number:

  1. Resolved. The NSD concurred with our recommendation to ensure
     that established procedures for maintaining documentation to support
     all terrorism-related statistics reported are followed. The NSD stated
     in its response that its Counterterrorism Section intends to maintain
     both an electronic snapshot and a hard copy record of the data from its
     case tracking system used to support operational statistics at the time
     such statistics are reported in the NSD’s budget, congressional, and
     other documents.

     This recommendation can be closed when we receive documentation
     demonstrating that the NSD revised its circular containing internal
     control procedures for gathering, verifying, and reporting terrorism-
     related statistics. The circular should require that NSD maintain both
     an electronic snapshot and a hard copy record of the data from its case
     tracking system used to support operational statistics reported in the
     NSD’s budget, congressional, and other documents.

  2. Resolved. The NSD concurred with our recommendation to ensure
     that the draft procedures developed by the Office of Justice for
     Victims of Overseas Terrorism (OVT) for gathering, verifying, and
     reporting its terrorism-related statistics are formally published. The
     NSD stated in its response that in July 2012, OVT published its Victims
     of Overseas Terrorism Tracking Tool Circular Protocol that explains in
     detail how the tracking tool functions and the roles played by OVT
     staff. The NSD also made a technical comment regarding the number
     of reported victims for FY 2009 that the OIG tested. In response to
     the NSD’s comment, we made minor edits to the tables on pages 11
     and 33 to clarify the number of reported victims that we tested.



                                    42
   This recommendation can be closed when we receive and verify the
   adequacy of OVT’s July 2012 published procedures for gathering,
   verifying, and reporting its terrorism-related statistics.

3. Resolved. The NSD concurred with our recommendation to ensure
   that the definitions included in the budget for reported statistics clearly
   identify how the group of items counted for each statistic was
   determined. The NSD stated in its response that it has changed its
   budget language for current and future budget presentations to more
   clearly articulate how data is grouped to calculate the terrorism-related
   statistics reported in those documents. As an example, the NSD
   stated that the definition for its statistic reflecting cases favorably
   resolved has been changed to defendants whose cases were favorably
   resolved. The NSD’s response also stated that its Executive Office, in
   coordination with the Counterterrorism Section and NSD leadership,
   will ensure that NSD budget documents clearly and consistently define
   the data behind reported terrorism-related statistics.

   This recommendation can be closed when we receive evidence
   demonstrating that the NSD has revised: (1) the budget language for
   current and future budget presentations to clearly identify how the
   group of items counted for each statistic was determined; and
   (2) its circular containing internal control procedures for gathering,
   verifying, and reporting terrorism-related statistics to show that the
   NSD’s Executive Office, in coordination with the Counterterrorism
   Section and NSD leadership, will verify that terrorism-related statistics
   reported are clearly and consistently defined and support the data
   behind the terrorism-related statistic.




                                    43
